                          C
                     INSPE TOR GEN
                AL                E
           CI




                                            RA
       E
     SP




                                                L
                                                M
     TRO




                                            RA
           LE
      UB




                                       OG

                DA                          R
                     S S E T R E LI E F P




                         Banks and Credit Unions in Tarp’s
                          CDCI Program Face Challenges




Special Inspector General for the Troubled Asset Relief Program
                                                             April 30, 2014
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM
                                                                                                                                   QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   1




INTRODUCTIONi
TARP’s Capital Purchase Program bailout of 707 banks is well known, but there
is a lesser known TARP bailout of 36 small banks and 48 credit unions called the
Community Development Capital Initiative (“CDCI”) that will likely continue
until at least 2018. Although the program itself is much smaller than CPP and
the participating institutions are small, they play a vital role in serving low-income
communities not traditionally served by larger institutions. In February 2010,
in a release announcing “New Efforts to Improve Access to Credit for Small
Businesses,” the Administration announced that CDCI would support “small
business lending in the hardest-hit rural and urban communities by making low-
cost capital available.” The announcement stated that CDCI and the non-TARP
Small Business Lending Fund were new measures as “part of an ongoing effort to
help small businesses access credit and create jobs.” This report is designed to raise
awareness of the challenges that these banks and credit unions face and the need
for careful oversight by Treasury, which oversees CDCI and taxpayer investments in
these companies.
    The financial stability of CDCI banks and credit unions must be an ongoing
concern to Treasury as a long-term investment in the financial recovery of small
businesses in underserved communities. Treasury’s oversight over the financial
stability of CDCI institutions cannot solely be viewed as ending at the time it
made TARP investments, because it made those investments with a specific and
important goal that must be measured and met to help small businesses. Treasury’s
Office of Financial Stability that administers TARP should keep careful watch
over the financial stability of these institutions the entire time they are in TARP so
that these institutions can lend to small businesses while getting themselves in a
position to repay TARP. Treasury needs to conduct adequate oversight over these
institutions to ensure that the purpose of the program, to increase small business
lending in hard hit communities, is met, and to work with CDCI institutions and
their regulators to ensure that eventually they will be able to stand on their own,
financially stable, without taxpayer assistance.
    Although announced as a separate TARP program, Treasury allowed banks
already in TARP’s CPP to apply for CDCI funds with the idea that these banks
would promote small business lending in their communities. Treasury made
the decision in 2010 that 81% of the $570.1 million in TARP money for CDCI
would go to 28 banks already in TARP’s CPP and the great majority of those
funds ($363.3 million) would be used to convert the CPP obligation to a CDCI
obligation. These 28 TARP banks in CPP that converted to CDCI got two
significant benefits. First, they got TARP funds at a cheaper cost because the
dividend they pay to Treasury decreased from 5% to 2%. Second, they got to keep
that low dividend for eight years (2018), rather than for the five-year term in CPP
(2014-2015). Only $106 million of the $570.1 million invested by CDCI went to


i The
     Office of the Special Inspector General for the Troubled Asset Relief Program (“SIGTARP”) is issuing this report under the
 Emergency Economic Stabilization Act. The report is based on SIGTARP internal information. It is not an audit or evaluation under the
 Inspector General Act of 1978, as amended.
2   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           institutions that were not already in TARP.1 Because these banks received a great
                                           benefit from converting to CDCI, and Treasury agreed to accept less in dividend
                                           payments, it is vitally important that Treasury ensure that these institutions earn
                                           those benefits by meeting the goal of the program to promote small business
                                           lending in their communities. Otherwise, taxpayers will have been paid less in
                                           dividend payments, with little benefit.
                                               Unlike the smaller banks in CPP that have already faced or will soon face the
                                           dividend increase and are scrambling to raise capital or debt to repay TARP or face
                                           Treasury auctioning their shares, the banks and credit unions in CDCI could be
                                           in TARP for many years to come. Whereas in CPP the TARP dividend rate began
                                           increasing to 9% after five years (beginning in 2014 for many banks), putting
                                           pressure on banks to repay TARP, the dividend rate for CDCI banks and credit
                                           unions does not rise to 9% until 2018.
                                               Only 14 CDCI institutions have been able to repay TARP and an additional
                                           bank exited the program via bankruptcy. The 69 banks and credit unions remaining
                                           in CDCI as of March 31, 2014, continue to face challenges that could impact
                                           their financial stability, ability to lend to small businesses in their communities,
                                           and their ability to repay TARP. Community banks continue to have difficulty in
                                           gaining access to capital. Credit unions have experienced a rise in non-performing
                                           loans, which impacts their balance sheet and capital. Eight of the remaining CDCI
                                           institutions have current enforcement actions by their Federal banking regulator.2
                                           Moreover, many of the CDCI institutions are in economically hard-hit areas
                                           around the country that are still struggling to recover from the crisis.
                                               Because of these challenges, it is especially important that Treasury keeps a
                                           watchful eye on taxpayer investments in CDCI institutions. These small banks
                                           and credit unions do not disclose the same amount of information about their
                                           health and performance as larger banks. However, Treasury and the public have
                                           a tool designed to provide some transparency on the financial stability of these
                                           institutions. In December 2008, SIGTARP recommended that Treasury require
                                           TARP recipients to report quarterly on their use of TARP funds. While Treasury
                                           did not require CPP banks to comply with this requirement, in 2010 they began
                                           sending annual surveys to CPP banks asking for voluntary responses, and they
                                           required annual reporting for CDCI participants. Never once has Treasury received
                                           100% compliance. In other words, never in the history of the program have all the
                                           banks and credit unions in CDCI complied with the mandatory requirement to
                                           report on how they used the TARP funds. Eight banks and credit unions in CDCI
                                           have never told Treasury how they used TARP funds, despite being required to do
                                           so in the contract they signed to get the TARP money. Worse yet is that Treasury
                                           does not enforce its contract, a fact which does not go unnoticed by the CDCI
                                           institutions. The number of survey responses that CDCI institutions actually
                                           submitted to Treasury has decreased dramatically; from 83% reporting in 2010,
                                           to 74% in 2011, and only 33% in 2012.3 As a result, Treasury and the public do
                                           not know what these TARP funds were actually used for, or have access to other
                                           information requested in the surveys that could provide insight into the financial
                                           stability of these institutions.
                                                                                 QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   3




    Treasury also has access to another key piece of information that would shed
light on the financial stability of CDCI institutions, which is whether those
institutions are paying timely dividend payments to Treasury and the reason why
delinquent institutions missed dividend payments. Given the low 2% dividend
rate, missed dividends can provide important insight into a bank or credit union’s
health. This is particularly true if the institution misses five payments to Treasury,
which would trigger Treasury’s policy of sending observers to board meetings of
the institutions, or eight payments which triggers Treasury’s right to appoint two
directors to the board. Attendance at the board meetings can provide a wealth of
information to Treasury on the financial stability of the CDCI institution, which
impacts their ability to meet the program’s goals, their ability to pay dividends, and
their ability to repay TARP. However, Treasury did not request to send an observer
to one CDCI bank that had missed six payments. That bank later failed. Treasury
has failed to appoint directors to the board of one CDCI institution that had
converted from CPP and has missed 12 dividend payments. SIGTARP previously
recommended that Treasury enforce this important right that could help provide
independent and experienced board members who could provide effective internal
oversight and help detect any potential mismanagement or fraud.4




CDCI INSTITUTIONS FACE CHALLENGES THAT
COULD IMPACT THEIR FINANCIAL STABILITY,
ABILITY TO LEND TO SMALL BUSINESSES, AND
ABILITY TO REPAY TARP
Limited Access to Capital
CDCI provided capital to smaller community banks that had limited access
to capital through other means. Banks with assets under $1.5 billion do not
have access to capital from private equity firms, mutual funds, foundations,
and other institutional investors. “Capital offerings for less than $20 million to
$30 million are often too small for many institutional investors regardless of
structure or investment thesis. Institutional investors have fixed costs to cover
and deal size minimums. They simply cannot monitor an unlimited number of
small investments, no matter how promising,” according to a white paper by the
Conference of State Bank Supervisors.5 Institutional investors also want a bank to
have a business plan that allows the investors to eventually realize gains through a
stock offering or by selling the bank to a larger institution.
    Capital is a measure of a bank’s health and strength. Capital is necessary to
build stronger balance sheets and absorb unexpected losses. CDCI institutions at
the same time are expected to provide small businesses in their communities with
access to capital. Small banks in CPP continue to experience problems with access
4   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                           to capital, which has become a challenge to their ability to repay TARP. CDCI
                                           institutions may face the same challenge.

                                           Rise of Non-Performing Loans at Credit Unions
                                           Credit unions, including CDCI participants, experienced slow to no loan growth
                                           between 2009 and 2011, but saw loan delinquencies and loan charge-offs
                                           increase.6 Pre-crisis, in 2006, 0.68% of credit union loans were more than 60 days
                                           past due.7 By 2008 loan delinquency rates more than doubled to 1.37% and were
                                           even higher the following year at 1.82%.8 In 2011, the rate of delinquencies started
                                           to decrease slowly to 1.75%.9 In 2012, loan delinquency rates dropped to 1.15%,
                                           but are still nowhere near the pre-financial crisis rate of 0.68%.10 Similarly, net loan
                                           charge-offs in 2006 accounted for 0.45% of credit union loans, and that number
                                           grew almost three-fold to 1.21% by 2009.11 As of 2012, the net charge off rate was
                                           at 0.73%, which was nearly double the 2006 rate.12

                                           Regulatory Orders
                                           Eight of the remaining 69 CDCI institutions (12%) have current enforcement
                                           actions by their Federal banking regulator.13 The enforcement actions include
                                           sanctions against personnel, formal agreements and consent orders, and sanctions
                                           due to Home Mortgage Disclosure Act (HMDA) violations. Four of those
                                           enforcement actions, including sanctions against personnel for two institutions,
                                           were issued after the institutions had received TARP funds through CDCI.14

                                           Hardest Hit Communities
                                           The CDCI recipients were specifically chosen because the communities they
                                           serve are the hardest hit rural and urban communities. This continues to present
                                           challenges as many of those communities, including states such as Mississippi,
                                           California, Illinois, Louisiana, and New York have not yet recovered. The largest
                                           concentration of CDCI outstanding funds, by far, is in the Southeast with $290
                                           million outstanding. The Mid-Atlantic/Northeast region and the Southeast
                                           continue to have the largest number of remaining CDCI institutions, 21 and 19
                                           remaining respectively. Ten CDCI institutions are in one state – Mississippi.15 The
                                           West and Mid-Atlantic/Northeast regions have a considerably larger number of
                                           CDCI credit unions than CDCI banks; 11 of the 13 remaining institutions in the
                                           West and 16 of the 21 remaining institutions in the Mid-Atlantic/Northeast region
                                           are credit unions.16 The opposite is true in the Southeast, where 16 of the 19
                                           remaining CDCI institutions are banks.17 Tables 1.1 through 1.7 show banks and
                                           credit unions remaining in CDCI by region and state as of March 31, 2014.
                                                                                                                                     QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   5




TABLE 1.1
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY REGION, AS OF
 3/31/2014
                                             Original              Remaining                                            Remaining          Remaining
                                          Number of                Number of                         Remaining          Number of          Number of
                                         Participants             Participants                      Investment             Banks         Credit Unions
 Mid-Atlantic/Northeast                                 24                        21                67,151,000                       5             16
 Southeast                                              22                        19           289,885,000                          16               3
 West                                                   14                        13           $26,799,000                           2             11
 Southwest/South Central                                11                         8                58,199,000                       2               6
 Midwest                                                11                         8                26,432,000                       4               4
 Mountain West/Plains                                    2                         0                             0                   0               0
 Total                                                  84                     69         $468,466,000                              29             40
 Source: Treasury, Transactions Report, 3/19/2014.


FIGURE 1.1
AMOUNT OF CDCI PRINCIPAL INVESTMENT REMAINING, BY REGION,
AS OF 3/31/2014

    AK
                                         MOUNTAIN WEST/
                                             PLAINS
                                               $0                                         MIDWEST                           MID-ATLANTIC/
                            WA                                                           $26 MILLION                         NORTHEAST
                                                                                                                 VT    ME
                                              MT             ND                                                              $67 MILLION
                       OR                                               MN                                                 NH
                                                                                   WI                           NY
   WEST                             ID                       SD                                                             MA
                                                                                           MI
$22 MILLION
                                              WY
                                                                         IA                                               CT RI
                                                                                                OH         PA            NJ
                                                             NE
                              NV                                                    IL    IN                           DE
                      CA                 UT                                                              WV VA
          GU                                       CO                    MO                                           MD
                                                                  KS                           KY
                                                                                                          NC
                                                                                          TN
           HI                        AZ                            OK        AR                           SC
                                                   NM
                                                                                        MS AL       GA          SOUTHEAST
                                                              TX              LA                               $290 MILLION

                                                                                                          FL                   PR
                                     SOUTHWEST/
                                    SOUTH CENTRAL
                                     $58 MILLION

                WEST                                                               MIDWEST
                MOUNTAIN WEST/PLAINS                                               MID-ATLANTIC/NORTHEAST
                SOUTHWEST/SOUTH CENTRAL                                            SOUTHEAST
6     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




    Mid-Atlantic/Northeast
    TABLE 1.2
     BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                Original          Remaining                           Remaining     Remaining
                                                                             Number of            Number of               Remaining   Number of     Number of
                                                                            Participants         Participants            Investment      Banks    Credit Unions
                                VT    ME
                                                                  CT                       1                    1           $7,000           0               1
                                           NH
                                                                  DC                       3                    3       13,303,000           2               1
                           NY               MA
                                                   RI             NJ                       2                    1           31,000           0               1
                                      CT
                      PA             NJ                           NY                      13                   12       42,660,000           2              10
                                    DE
                WV VA
                WV                MD                              PA                       1                    1          100,000           0               1
                                 DC
                                                                  VA                       3                    2        9,959,000           1               1
                                                                  VT                       1                    1        1,091,000           0               1
     MID-ATLANTIC/                       >$10 million             Total                  24                   21       $67,151,000           5              16
                                         $1 million-$10 million
     NORTHEAST                           $1-$1 million            Source: Treasury, Transactions Report, 3/19/2014.
     Principal investment                $0
     remaining in CDCI banks




    Southeast
    TABLE 1.3
     BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                Original          Remaining                           Remaining     Remaining
                                                                             Number of            Number of               Remaining   Number of     Number of
                                                                            Participants         Participants            Investment      Banks    Credit Unions
                                 NC
                TN                                                AL                       3                    3      $16,698,000           2               1
                                SC
                                                                  GA                       2                    2       15,213,000           2               0
          MS     AL    GA
                                              PR                  MS                      12                   10      220,444,000           9               1
                                                                  NC                       3                    2       12,735,000           1               1
                                 FL                               SC                       1                    1       22,000,000           1               0
                                                                  TN                       1                    1        2,795,000           1               0
     SOUTHEAST                       >$10 million                 Total                  22                   19      $289,885,000          16               3
     Principal investment            $1 million-$10 million
                                     $1-1 million                 Source: Treasury, Transactions Report, 3/19/2014.
     remaining in CDCI
     banks                           $0
                                                                                                              QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014       7




West
TABLE 1.4
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                        Original          Remaining                              Remaining       Remaining
                                                                     Number of            Number of                Remaining     Number of       Number of
                                                                    Participants         Participants             Investment        Banks      Credit Unions
                                       WA
                                                          AK                       1                    1         $1,600,000               0                  1
          AK                                              CA                       9                    8         21,503,000               2                  6
                                  OR
                                                          GU                       1                    1          2,650,000               0                  1
                                                          HI                       2                    2            971,000               0                  2
                                                          WA                       1                    1             75,000               0                  1
                GU                                        Total                  14                   13        $26,799,000                2              11
                                 CA
                                                          Source: Treasury, Transactions Report, 3/19/2014.


                 HI

  WEST                       >$10 million
  Principal investment       $1 million-$10 million
  remaining in CDCI banks    $1-$1 million
                             $0




Southwest/South Central
TABLE 1.5
 BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                        Original          Remaining                              Remaining       Remaining
                                                                     Number of            Number of                Remaining     Number of       Number of
                                                                    Participants         Participants             Investment        Banks      Credit Unions
     AZ                          OK
               NM                           AR            AR                       1                    1        $33,800,000               1                  0
                                                          AZ                       1                    1          2,500,000               0                  1
                                            LA
                            TX                            LA                       6                    4         18,204,000               1                  3
                                                          TX                       3                    2          3,695,000               0                  2
                                                          Total                  11                     8       $58,199,000                2                  6
                                                          Source: Treasury, Transactions Report, 3/19/2014.
 SOUTHWEST/                      >$10 million
                                 $1 million-$10 million
 SOUTH CENTRAL                   $1-$1 million
 Principal investment            $0
 remaining in CDCI banks
8     SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




    Midwest
    TABLE 1.6
     BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                       Original          Remaining                          Remaining     Remaining
                                                                                    Number of            Number of              Remaining   Number of     Number of
                                                                                   Participants         Participants           Investment      Banks    Credit Unions
                                                                         IL                       7                    6     $25,193,000           4               2
                MN
                           WI                                            IN                       2                    2       1,239,000           0               2
                                          MI
                                                                         MN                       1                    0               0           0               0
                 IA
                                      IN       OH                        WI                       1                    0               0           0               0
                                IL
                     MO                                                  Total                  11                     8     $26,432,000           4               4
                                           KY
                                                                         Source: Treasury, Transactions Report, 3/19/2014.


       MIDWEST                            >$10 million
       Principal investment               $1 million -$10 million
       remaining in CDCI                  $1-$1 million
       banks                              $0




    Mountain West/Plains
    TABLE 1.7
     BANKS AND CREDIT UNIONS WITH CDCI PRINCIPAL REMAINING, BY STATE, AS OF 3/31/2014
                                                                                       Original          Remaining                          Remaining     Remaining
                                                                                    Number of            Number of              Remaining   Number of     Number of
                                                                                   Participants         Participants           Investment      Banks    Credit Unions
                                MT                  ND                   MT                       1                    0              $0           0               0
                                                                         WY                       1                    0               0           0               0
                 ID                                 SD
                                     WY                                  Total                    2                    0              $0           0               0
                                                    NE                   Source: Treasury, Transactions Report, 3/19/2014.
          NV
                      UT
                                      CO
                                                         KS


    MOUNTAIN WEST/                              >$10 million
                                                $1 million-$10 million
    PLAINS                                      $1-$1 million
    Principal investment
                                                $0
    remaining in CDCI banks
                                                                                  QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   9




CDCI Recipients Need New Capital and Financial Stability to
Exit TARP
Community banks and credit unions in CDCI provide a financial lifeline to
underserved communities. Both Treasury and taxpayers have an interest in
ensuring that CDCI institutions remain financially stable so that they can help
their communities recover by loaning funds to small businesses, and eventually be
strong enough to repay TARP. Given the challenges these banks and credit unions
face, there is a need for careful oversight by Treasury over the financial stability
of the institutions to ensure that the purpose of the CDCI program, to promote
small business lending, continues to be met and to increase the likelihood that
taxpayers are repaid in full. Treasury’s oversight over the financial stability of these
institutions cannot solely be viewed in the past, as a one-time capital investment.
Treasury’s TARP investments in CDCI banks and credit unions were long-term
investments in the financial recovery of underserved communities. In addition,
to exit TARP, banks must obtain the approval of their primary Federal banking
regulator, which determines if an institution is strong enough to maintain adequate
capitalization after repaying TARP. Fourteen institutions in CDCI have repaid
TARP and one bank has exited the program as a result of bankruptcy as of March
31, 2014. Treasury must maintain careful oversight over the financial stability of
the remaining CDCI recipients the entire time they are in TARP so that these
banks and credit unions can lend to small businesses while getting themselves in a
position to repay TARP and be financially stable without taxpayer assistance.




BANKS AND CREDIT UNIONS IN CDCI ARE NOT
REPORTING ON THEIR USE OF TARP FUNDS,
WHICH HINDERS TRANSPARENCY, OVERSIGHT
AND TREASURY’S ABILITY TO JUDGE WHETHER,
THE GOALS OF THE PROGRAM ARE BEING MET
Because of the challenges CDCI institutions face, it is especially important that
Treasury keep a watchful eye on taxpayer investments in CDCI institutions. Small
banks and credit unions do not disclose the same amount of information about
their health and performance as larger banks. However, Treasury has an important
source of information about the financial stability of CDCI institutions in the
TARP requirement that these institutions respond annually to a Treasury survey
on the use of TARP funds. However, many CDCI institutions have not complied
with this requirement, refusing to provide transparency. Treasury has not enforced
the disclosure, thereby losing an important tool to gain information on the CDCI
institutions.
    Because Treasury did not put limitations in its TARP contracts with institutions
on how they could use TARP funds, one of the first recommendations that
10   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            SIGTARP made to Treasury was that Treasury require all TARP recipients to report
                                            on the actual use of TARP funds they received. As a result, when Treasury invested
                                            TARP dollars in institutions, it was entirely unclear what was done with the TARP
                                            money. TARP agreements generally did not require recipients to report or even
                                            to track internally the use of TARP funds, which posed two significant problems.
                                            First, it does not provide necessary basic transparency. It is not unreasonable to
                                            expect that American taxpayers, who were asked to fund the unprecedented bailout,
                                            and their representatives in Congress have some understanding as to how the
                                            recipients used the TARP funds. Second, the lack of transparency affects oversight
                                            because Treasury and SIGTARP cannot assess the effectiveness of TARP programs
                                            over time and are hindered in the ability to oversee certain recipients’ compliance
                                            with conditions of the TARP agreement. At the time of SIGTARP’s December 2008
                                            recommendation, Treasury refused to adopt SIGTARP’s recommendation and did
                                            not believe that “requiring reports as to how the specific funds were spent would be
                                            meaningful, since it could never be said with certainty that particular funds were
                                            used for a particular purpose.”
                                                In February 2009, SIGTARP itself sent a survey to 360 TARP recipient banks
                                            in CPP (CDCI did not yet exist), asking them to report on their anticipated and
                                            actual use of TARP funds, a survey that had a 100% response rate. Every CPP
                                            bank responded to SIGTARP’s survey and SIGTARP found that despite Treasury’s
                                            argument that money is fungible, TARP banks were able to provide meaningful
                                            information on their use of TARP funds. Notably, 80% of the banks cited that they
                                            used the funds for lending, 40% reported that some of the TARP funds were used
                                            to maintain capital cushions, and some banks reported repaying outstanding loans,
                                            investing in mortgage-backed securities, or buying other banks. SIGTARP followed
                                            with another survey for the automotive companies bailed out by TARP and for AIG.
                                            SIGTARP posted every survey response on its website.
                                                One year after SIGTARP’s recommendation, in December 2009, Treasury
                                            finally agreed to act on SIGTARP’s recommendation to require CPP recipients to
                                            report on the use of TARP funds. However, Treasury made compliance voluntary
                                            for CPP recipients. On March 11, 2010, following Treasury’s February 3, 2010,
                                            announcement of CDCI, SIGTARP made a related recommendation for CDCI.
                                            SIGTARP then recommended that Treasury require quarterly reporting on the
                                            use of TARP funds for CDCI participants, rather than annual reporting, to more
                                            effectively emphasize the purpose of the program. Treasury rejected quarterly
                                            reporting, but did include a requirement in CDCI contracts that the recipient
                                            annually report on the use of their TARP funds and the effects of the TARP capital
                                            on the operations and status of the TARP recipient.
                                                Never in the history of the CDCI program have all 84 CDCI banks and credit
                                            unions complied with the contractual requirement to report annually to Treasury
                                            on their use of funds. Treasury, in other words, has never had a 100% response
                                            rate, even though SIGTARP was able to obtain a 100% response rate from 360
                                            CPP institutions in 2009. Moreover eight banks and credit unions in CDCI have
                                            never told Treasury how they used TARP funds, despite being required to do so in
                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   11




the contract they signed to get the TARP money. Table 1.8 lists the names of these
institutions and the amount of TARP funds they received.

TABLE 1.8
 CDCI INSTITUTIONS THAT NEVER SUBMITTED USE OF FUNDS SURVEYS
                                                                      TARP
 Institution                                                    Investment City         State
 Bancorp of Okolona, Inc.                                       $3,297,000 Okolona      MS
 D.C. Federal Credit Union                                       1,522,000 Washington   DC
 Faith Based Federal Credit Union                                  30,000 Oceanside     CA
 Greater Kinston Credit Union                                     350,000 Kinston       NC
 Neighborhood Trust Federal Credit Union                          283,000 New York      NY
 Tri-State Bank of Memphis                                       2,795,000 Memphis      TN
 Union Settlement Federal Credit Union                            295,000 New York      NY
 UNITEHERE Federal Credit Union
                                                                   57,000 New York      NY
 (Workers United Federal Credit Union)
 Source: Treasury, “Use of Capital Survey,” 2010, 2011, 2012.



    Despite this red flag, surprisingly Treasury has failed to enforce its contract
and the requirement that all CDCI banks and credit unions report on their use of
TARP funds, which likely has contributed to less and less compliance each year.
Eight institutions have never responded to the survey. While 59 institutions have
failed to respond to the survey at least once, 25 of those have failed to respond
for two of the three years. The number of CDCI institutions that have met this
contractual requirement of reporting annual use of TARP funds has decreased
dramatically from year to year. For the year 2010 survey, 14 of the 84 CDCI
recipients failed to report to Treasury on their use of TARP funds.18 For 2011, 22 of
the 84 CDCI recipients failed to report to Treasury on their use of TARP funds.19
For 2012, the most recent annual data available, 67% (56) of the 84 recipients
that had outstanding TARP funds at any point during that year failed to report to
Treasury on their use of TARP funds.20
    Simply put, the American people have a right to know how tax dollars are
being spent. Without reporting on the use of TARP funds, Treasury, SIGTARP,
and taxpayers are left in the dark, deprived of the transparency required by the
terms of CDCI participation. Requiring institutions to report on their use of TARP
funds is fundamental to making TARP transparent to the public. In addition,
Treasury does not have access to important information that could provide
insight into the financial stability of these TARP institutions. Prior disclosures by
CDCI banks and credit unions shed light on TARP fund use and have provided
important information related to charge-offs, capital, new investments, and other
performance measures.
    The annual use of funds surveys are also a source by which Treasury can gauge
whether the CDCI program is meeting its goals. It is critical to the oversight of
CDCI that Treasury is aware of how these institutions are using TARP funds and
whether the funds are being used to best promote the long-term financial stability
12   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                            of these institutions and to support small businesses in the communities they serve.
                                            The White House announcement of CDCI entitled “President Obama Announces
                                            New Efforts to Improve Access to Credit for Small Businesses” stated that CDCI
                                            was a program to support small business lending. However, Treasury, when it gave
                                            the funds, did not require CDCI institutions to lend the TARP funds to small
                                            businesses. Even though Treasury did not restrict the use of TARP funds, it can
                                            use the results of the surveys to determine whether the goal of supporting small
                                            business lending has been met. However, in its survey to CDCI recipients, Treasury
                                            does not even ask about small business lending, instead asking about lending in
                                            general. To qualify for CDCI, an institution must have been certified by Treasury
                                            that at least 60% of its lending and other economic development activities are
                                            to underserved areas. However, Treasury should not assume that any increase in
                                            lending went to small businesses. Therefore, it is unclear how Treasury measures
                                            whether CDCI recipients actually increased small business lending.
                                                SIGTARP’s review of the CDCI survey responses showed that while
                                            approximately two-thirds of the banks responded that they either increased lending
                                            in general or did not decrease lending as much as they would have without the
                                            TARP funds, nearly one-third (29%) of the banks/credit unions in CDCI either
                                            answered “no”, left blank the lending question, or ignored Treasury’s survey.
                                            This included banks that were initially in CPP and converted to CDCI, thereby
                                            obtaining the benefit of an immediate reduction in their dividend payment rate
                                            from 5% to 2% and the ability to keep that low 2% rate for eight years rather than
                                            five years. If those institutions did not use the funds to increase small business
                                            lending, then it is unclear what they did to earn the benefit of that dividend rate
                                            reduction.
                                                Treasury’s ability to gauge the effectiveness of the CDCI program is hindered
                                            without information from those CDCI institutions that ignored Treasury’s survey.
                                            Moreover, it is unclear whether Treasury finds it acceptable to have nearly one-
                                            third of the CDCI recipients not reporting any increase in lending in general (or at
                                            least no decrease in lending). One of these CDCI participants for example, Carter
                                            Federal Credit Union in Louisiana, which received $6.3 million in TARP funding,
                                            reported no increase in lending, instead reporting, “the CDCI program allowed us
                                            to continue offering worthwhile dividends on our members’ share accounts without
                                            having to worry that additional asset growth might drag our Net Worth ratio below
                                            the 7.00% threshold.”
                                                TARP recipients’ reporting on how they used TARP funds also helps identify
                                            potential fraud and wrong doing. SIGTARP could use information included in
                                            the use of funds surveys in criminal investigations. In one public example, after a
                                            SIGTARP investigation, Darryl Lane Woods, the former Chairman and President
                                            of Calvert Financial Corporation, was convicted for misleading SIGTARP in its
                                            February 2009 survey about his bank’s use of TARP funds. In January 2009, the
                                            bank received $1,037,000 though CPP. SIGTARP was able to uncover that the
                                            bank used $381,487 of TARP funds, days after receiving them, to purchase a
                                            luxury seaside condominium in Fort Myers, Florida. Because Treasury had not
                                            included any restrictions on the use of TARP funds in the contract, this use of
                                                                                                                                QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014   13




TARP funds was not prohibited. However, one week later, Woods signed a letter
responding to SIGTARP’s “use of funds” survey failing to disclose the purchase of
the condominium. As part of his plea agreement, Woods admitted that he failed to
disclose to SIGTARP that a significant portion of TARP funds had been used to
purchase the condominium.



CDCI INSTITUTIONS THAT MISSED TARP
DIVIDENDS AND INTEREST PAYMENTS
Treasury also has access to another piece of information that would shed some
light on the financial stability of CDCI institutions, which is whether those
institutions are paying timely dividend payments to Treasury, and if not, the reason
why payments were missed.21,ii Given that a 2% dividend rate (some pay 3.1%) is
very low, the fact that a bank or credit union missed paying the Treasury dividend
can provide important insight into their health. This is particularly true if multiple
payments are missed. As of March 31, 2014, two institutions had non-current
unpaid dividends or interest payments to Treasury totaling $200,300.22 Table 1.9
lists the institutions that have ever missed payments to Treasury and those that
were not current as of March 31, 2014.

TABLE 1.9
 CDCI-RELATED MISSED DIVIDEND AND INTEREST PAYMENTS, AS OF 3/31/2014
                                                                              Number                   Unpaid            Non-Current
                                            Dividend or                      of Missed             Dividends/             Dividends/
 Institution                                Payment Type                     Payments                 Interest               Interest
 PGB Holdings, Inc.                         Cumulative                                  12           $180,000              $180,000
 Premier Bancorp, Inc.*                     Interest                                      6            316,624                    —
 Community Bank of The
                                            Non-Cumulative                                1              20,300               20,300
 Bay
 Tri-State Bank of Memphis                  Non-Cumulative                              —a               55,900                   —
 Carver Bancorp, Inc.                       Cumulative                                  —  a
                                                                                                       284,700                    —
 First American International
                                            Cumulative                                  —a             765,000                    —
 Corp.
 First Vernon Bancshares,
                                            Cumulative                                  —a             343,475                    —
 Inc.
 Neighborhood Trust                         Credit Union
                                                                                        —a                 4,245                  —
 Federal Credit Union                       Interest
 UNITEHERE Federal Credit
                                            Credit Union
 Union (Workers United                                                                  —a                    570                 —
                                            Interest
 Federal Credit Union)
 Notes: Numbers may not total due to rounding.
 * On 3/23/2012, the subsidiary bank of Premier Bancorp, Inc. failed.

 a
     Institution later became current in accrued and unpaid dividends after missing initial scheduled payment date(s).

 Source: Treasury, Dividends and Interest Report, 4/10/2014.



ii As of March 31, 2014, Treasury has received $38.3 million in dividends and interest from CDCI recipients.
14   SPECIAL INSPECTOR GENERAL I TROUBLED ASSET RELIEF PROGRAM




                                                In its TARP contracts with CPP and CDCI recipients, Treasury created a
                                            right to appoint up to two directors to the boards of those institutions that miss
                                            a required number of quarterly dividend payments (six for CPP and eight for
                                            CDCI). Treasury-appointed directors have value in their independence, and their
                                            experience helps them provide effective internal oversight and a contribution to
                                            CDCI institutions that face challenges with their condition, health, or existing
                                            board. In addition, a Treasury-appointed director’s experience and expertise could
                                            also help detect any potential mismanagement or fraud.
                                                On September 30, 2013, SIGTARP expressed concern and recommended
                                            to Treasury that Treasury enforce its important right to appoint directors to the
                                            boards of CPP and CDCI institutions. For example, although PGB Holdings, Inc.
                                            has missed more than eight TARP dividend payments, triggering Treasury’s right
                                            to appoint up to two directors to its board, Treasury has not enforced that right.23
                                            PGB was a CPP bank that got the benefit of reducing its CPP dividend rate from
                                            5% to 2% when it converted to CDCI, but now it has missed 12 of those payments.
                                            As explained in Section 5 of this report, Treasury has made some progress in
                                            implementing SIGTARP’s recommendation for CPP banks. It should continue to
                                            do so for CDCI recipients as well.
                                                Treasury can also have a significant impact just by making it clear that it intends
                                            to enforce these rights. Treasury’s policy is to have a Treasury employee observe
                                            the board meetings of CDCI recipients that have missed five dividend payments.
                                            Attendance at the board meetings can provide a wealth of information to Treasury
                                            on the financial stability of the CDCI institutions. Treasury made a request to
                                            send an observer to the board meetings of CDCI-participant First American
                                            International Corp. in February 2013. The bank rejected Treasury’s request, but
                                            subsequently paid the missing dividends.24 Treasury has only sent an observer to
                                            the board meetings of one CDCI bank, First Vernon Bancshares Inc., and since
                                            doing that, First Vernon paid the delinquent dividends. However, CDCI participant
                                            Premier Bank failed on March 23, 2012. Despite the fact that at the time of its
                                            failure Premier Bank had already missed six TARP dividend payments, Treasury
                                            had not made a request to place a Treasury observer at its board meetings. Treasury
                                            also never placed a Treasury official to observe PGB’s board meetings despite the
                                            bank missing 12 Treasury dividend payments.
                                                                                           QUARTERLY REPORT TO CONGRESS I APRIL 30, 2014               15




1.	    Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
2.	    SNL Financial LLC data.
3.	    Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
       capital/Pages/default.aspx, accessed 3/28/2014.
4.	    Treasury, response to SIGTARP data call, 4/9/2014.
5.	    “Community Banks and Capital: Assessing a Community Bank’s Need and Access to Capital in the Face of Market and Regulatory Challenges,”
       Conference of State Bank Supervisors white paper, December 2011, www.csbs.org/news/csbswhitepapers/Documents/CSBS-CommunityBanksC
       apitalWhitePaper120811.pdf, accessed 3/28/2014.
6.	    CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
7.	    CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
8.	    CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
9.	    CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
10.	   CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
11.	   CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
12.	   CUNA, “Frequently Requested Bank and Credit Union Comparisons,” www.cuna.org/Research-And-Strategy/Credit-Union-Data-And-Statistics/
       Credit-Union-Versus-Bank-Comparisons/, accessed 3/28/2014.
13.	   SNL Financial LLC data.
14.	   SNL Financial LLC data.
15.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
16.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
17.	   Treasury, Transactions Report, 3/19/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/3-21-14%20Transactions%20
       Report%20as%20of%203-19-14_INVESTMENT.pdf, accessed 4/3/2014.
18.	   Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
       capital/Pages/default.aspx, accessed 3/28/2014.
19.	   Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
       capital/Pages/default.aspx, accessed 3/28/2014.
20.	   Treasury, “Annual Use of Capital Survey,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cap/use-of-
       capital/Pages/default.aspx, accessed 3/28/2014.
21.	   Treasury, “CDCI: FAQS,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Pages/faqs.aspx#cdci_
       faq, accessed 3/28/2014.
22.	   Treasury, Dividends and Interest Report, 4/10/2014, www.treasury.gov/initiatives/financial-stability/reports/Documents/March%202014%20
       Dividends%20Interest%20Report.pdf, accessed 4/11/2014
23.	   Treasury, “CDCI: Summary of Terms,” www.treasury.gov/initiatives/financial-stability/TARP-Programs/bank-investment-programs/cdci/Pages/
       documents.aspx, accessed 3/28/2014.
24.	   Treasury, response to SIGTARP data call, 4/16/2014.
SIGTARP HOTLINE
If you are aware of fraud, waste, abuse, mismanagement, or misrepresentations associated
with the Troubled Asset Relief Program, please contact the SIGTARP Hotline.
By Online Form:	       www.SIGTARP.gov
By Phone:	             Call toll free: (877) SIG-2009
By Fax:	               (202) 622-4559
By Mail:	              Hotline: Office of the Special Inspector General
	                      for the Troubled Asset Relief Program
	                      1801 L Street., NW, 3rd Floor
	                      Washington, D.C. 20220




PRESS INQUIRIES
If you have any inquiries, please contact our Press Office:
	                     Troy Gravitt
	                     Director of Communications
	Troy.Gravitt@treasury.gov
	202-927-8940




LEGISLATIVE AFFAIRS
For Congressional inquiries, please contact our Legislative Affairs Office:
	                    Joseph Cwiklinski
	                    Director of Legislative Affairs
	Joseph.Cwiklinski@treasury.gov
	202-927-9159




OBTAINING COPIES OF TESTIMONY AND REPORTS
To obtain copies of testimony and reports, please log on to our website at www.SIGTARP.gov.




                                                          C
                                                     INSPE TOR GEN
                                                AL                E
                                           CI
                                                                            RA
                                       E
                                     SP




                                                                                L
                                                                                M
                                    TRO




                                                                            RA




                                          LE
                                      UB




                                                                       OG




                                               DA                           R
                                                     S S E T R E LI E F P
